             REVIEW OF
  FEDERAL TECHNOLOGY SERVICE’S
      CLIENT SUPPORT CENTER
CONTROLS AND TESTING OF CONTROLS
    SOUTHEAST SUNBELT REGION
 REPORT NUMBER A050009/T/5/Z05021

           MAY 18, 2005
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that three orders had prior deficiencies and inadequate
remediation progress. As directed in the Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005, because the CSC is not fully compliant, we are
required to perform a subsequent audit of CSC contracting practices by March 2006 to
determine whether the CSC has become compliant.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$4.3 million schedule order for services that was negotiated as a time and materials
(T&M) contract. Federal Acquisition Regulation (FAR) 16.601 states a “time and
materials contract may be used only when it is not possible at the time of placing the
contract to estimate accurately the extent or, duration of the work, or to anticipate costs
with any reasonable degree of confidence.” The order also included four option years
which showed that estimated labor classifications and labor hours remained consistent
from year to year. Repetitive or redundant contract requirements should be awarded
under a firm fixed price type of contract, which is preferred by the FAR. Also, the
interagency agreement for this task order was prepared after the award.

Other Procurement Compliance Deficiencies. We identified five new orders that had
other various procurement compliance deficiencies.

       Two commodity orders for $217,000 and $270,000 did not have Interagency
        Agreements.

       Three service orders for $5.3 million, $919,000 and $387,000 did not have quality
        assurance surveillance plans (QASP’s). FAR 37.602-2 states that “Agencies
        shall develop quality assurance surveillance plans when acquiring services.”
        QASP’s define the contractor oversight functions performed by the Government.

Existing Order Procurement Deficiencies. We identified three existing orders that had
deficiencies. A remediation plan for the orders was not prepared.

•   A $46.1 million task order for services had inadequate documentation in support of
    the best value determination for equipment purchased. In addition, the order did not
    have a ceiling amount as required by FAR 16.6. There were additional file
    documentation issues and a QASP was not available for this order.

•   A $20.5 million task order for services was awarded with inadequate competition and
    a lack of support for the best value determination. The task order was procured sole
    source as a logical follow-on to a prior sole source contract. However, FTS could
    not provide documentation supporting the original sole source procurement. The
    contractor proposed a firm fixed price, however, FTS awarded a T&M order. The
    task order also exhibited large cost growth ($1.5 million to $20 million) and there was
    no QASP.




                                             2
•   A $131.6 million task order for services was awarded on a T&M basis. However, the
    labor costs remained fairly consistent from year to year. Repetitive type contract
    requirements are conducive to the more favorable firm fixed price type of
    contracting. Although the task order called for significant labor expenditures, a
    QASP was not available. We also determined that some of the contractor’s billing
    rates were not found in the underlying Schedule contract.


Conclusion

While not fully compliant, we found that the Southeast Sunbelt Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.     The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices. We
found that all orders reviewed were awarded in accordance with Section 803 of the
National Defense Authorization Act for Fiscal Year 2002. However, we did find
procurement compliance deficiencies in six new orders, including one with potential
financial impact, and three existing orders that had prior deficiencies with inadequate
remediation. As stated in our January 2004, report on the FTS CSCs, we believe that
steps to remedy the CSC procurement problems require a comprehensive, broad-based
strategy that focuses on the structure, operations and mission of FTS as well as the
control environment. Based on the comprehensive recommendations contained in that
report, no further overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis, as appropriate. We also provided a
draft of this letter report to regional officials. In his response, the Acting Regional
Administrator acknowledged the issues raised in the draft report and submitted a
remediation plan of action. Management’s response is included in its entirety as
Attachment 1 to this report.


Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the FAR and the terms and conditions
of the contracts utilized. While we have seen substantial improvements in internal
controls, FTS will need to continue their commitment to the “Get It Right” Plan and to




                                          3
P. 1 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
P. 2 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
P. 3 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
P. 4 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
P. 5 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
P. 6 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE
                                                               ATTACHMENT 2



                                  REVIEW OF
                        FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER CONTROLS
                           AND TESTING OF CONTROLS
                          SOUTHEAST SUNBELT REGION
                       REPORT NUMBER A050009/T/5/Z05021


                               REPORT DISTRIBUTION

                                                                       Copies

Acting Regional Administrator, Southeast Sunbelt Region (4A)             3

Acting Commissioner, Federal Technology Services (T)                     1

Assistant Inspector General for Auditing (AIGA)                          2

Regional Inspector General for Investigations (JI-4)                     1
